FS
I

CQCKE

Legal Briefs E-Mail Address:
contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 20-1199

STUDENTS FOR FAIR ADMISSIONS, INC...
Petitioner,
Vv.
PRESIDENT AND FELLOWS OF HARVARD COLLEGE,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of March, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF GAIL HERIOT AND PETER N.
KIRSANOW, MEMBERS OF THE U.S. COMMISSION ON CIVIL RIGHTS, IN THEIR CAPACITIES AS PRIVATE
CITIZENS, IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
GAIL HERIOT PETER N. KIRSANOW
4830 Hart Drive Counsel of Record
San Diego, California 92116 BENESCH, FRIEDLANDER,

COPLAN & ARONOFF, LLP
200 Public Square,

Suite 2300
Cleveland, Ohio 44114
(216) 363-4500
pkirsanow@beneschlaw.com

Subscribed and sworn to before me this 23rd day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska x a Z I,
RENEE J. GOSS Queda ,

Notary Public Affiant 40801

My Comm. Exp. September 5, 2023

 

 
Counsel for Petitioner Students for Fair Admissions, Inc.
William S. Consovoy

Consovoy McCarthy PLLC

1600 Wilson Boulevard

Suite 700

Arlington, VA 22209

will@consovoymccarthy.com

(703) 243-9423

Counsel for Respondent President and Fellows of Harvard College
Seth P. Waxman

Wilmer Cutler Pickering Hale and Dorr LLP

1875 Pennsylvania Ave, NW

Washington, DC 20006

Seth.Waxman@wilmerhale.com

(202) 663-6800
